..
              U.S. GOVERNMENT

     G:l):"   PRINTING OFFICE
              KEEPING AMERICA INFORMED
                                                                                   Robert C. Tapella
                                                                                          Public Printer




              November 30, 2007


              The Honorable Robert A. Brady
              Chairman
              Joint Committee on Printing
              1309 Longworth House Office Building
              Washington, DC 20515

              Dear Mr. Chairman:

              In accordance with 44 U.S.c. 3903 and the relevant provisions of the Inspector
              General Act of 1978, as amended, I am transmitting to the Congress the
              Semiannual Report of the Office of the Inspector General (OIG) for the U.S.
              GOvernment Printing Office (GPO), covering the 6 month period of April I
              through September 30, 2007, along with the following information as required by
              law. This letter meets my statutory obligation to provide comments on the OIG's
              repOli and highlights management actions taken on the OlG's recommendations,
              which may relate to more than one reporting period.

              General Comments

              As provided for by law, this section offers my general comments on the OIG's
              semiannual report and operations.

               I.      Management Challenges. The Inspector General has identified ten
                       challenges facing GPO's management: strategic planning, management of
                       human capital, improved financial management, continuity of operations,
                       internal controls, security and intelligent documents, supporting
                       congressional printing, information technology and systems management,
                       customer service, and acquisitions. These are program and operational
                       areas that are either undergoing significant change or require continuing
                       attention. Progress was made in several of these areas during the reporting
                       period and additional work continues. In my view, the organizational and
                       technological transformation that GPO began implementing in 2003
                       remains critical to the future of GPO. This effort must continue if GPO is
                       to carry out its mission effectively in the 21 st century.

               II.      Audits and Inspections. During the reporting period, the OIG issued 5
                        new audit and assessment repOIis, with recommendations to help improve
                        operational performance:


              732 North Capitol Street, NW   Washington, DC 20401   202.512-1000      rtapella@gpo.gov
The Honorable Robert A. Brady - Page 2


         •   Report 011 GPO Oracle Release 2 Project - Review a/Statement of
             Work (May 9, ;1007). This assessment concemed a draft Statement
             of Work (SOW) that was prepared by GPO to obtain the services
             of a project integrator for the Oracle Release 2 project. The
             assessment concluded that the SOW needed additional detail to
             ensure sllccessful performance by the integrator. OIG comments
             and recommendations to strengthen the SOW were provided to
             management and the GPO Oracle project team. Management has
             implemented the IV&V recommendations submitted to the Oracle
             Release 2 project team concerning the SOW. The strengthened
             SOW was included in the RFP that was submitted to vendors for
             quotes. A copy of the finalized SOW was also sent to the OIG
             contractor.

         •   Report on Web Trust Assessment oj'GPO Certification Authority-
             Attestation Report (September 17, 2007). This report was based on
             an attestation report issued by an OlG contractor. The contractor
             concluded that the assertions of management regarding GPO's
             Certification Authority - which supports the cross certification of
             GPO's Public Key Infrastructure (PK!) with the Federal Bridge
             Certificate Authority are fairly stated for the period August I,
             2006, to June 30, 2007. GPO management agrees with this report
             and there are no actions for follow-up.

         •   Report on Audit of Revised Settlement Proposal (September 19,
             2007). This report resulted from an OlG audit of a settlement
             proposal submitted by a GPO printing contractor following
             termination of the contract for the convenience of the Government.
             The OIG audit questioned the contractor's claim in its entirety.
             The audit report, which was advisory in nature, was submitted to
             the GPO contracting ofticer for use in negotiating a settlement or
             issuing a unilateral determination regarding the contractor's
             proposal. The GPO contracting officer is llsing the audit repolt to
             reach a settlement with the vendor.

         •   Report 011 GPO '.\' Compliance with the Federal b!/ormatiol1
             SeclIri(y Management Act (FISMA) (September 27,2007). This
             assessment resulted from a review of the design and effectiveness
             of the controls over GPO's information security program, policies,
             and practices based on the requirements of FISMA. Although
             FISMA does not apply to GPO statutorily as a legislative branch
             agency, GPO believes it should be FISMA-col1lpliant due to the
             range of information technology and related services we provide to
The Honorable Robert A. Brady - Page 3


              executive branch agencies. The report concluded that although
              GPO has taken steps to ensure that its policies and programs are
              consistent with FISMA requirements, additional progress is needed
              to comply fully, and contained I I recommendations. GPO
              management agrees with the recommendations contained in the
              report. Two ofthe recommendations have been implemented. The
              remaining recommendations are in the process of business
              planning/assessment or implementation. All assessments or
              implementation actions are planned for completion by March 31,
              2008, and are generally on schedule at this time.

          •   Report on Perimeter Security Assessment ofa GPO Building
              (September 28, 2007). This assessment resulted from a physical
              security review of GPO's building 4 warehouse conducted by the
              Federal Protective Service (FPS). The report identified existing
              countermeasures at the facility as well as credible threats to the
              building, and rated each threat as to potential impact of loss and
              vulnerability. The report contained 12 recommendations to
              enhance security for the building. GPO management concurs with
              the report recommendations; 2 remain open and are targeted for
              completion in 2008.

      Financial Statement Audit. GPO is required by law to obtain an
      independent annual audit of its financial statements. During the reporting
      period this audit was conducted by KPMO LLP, under a multiyear
      contract for the OIG provided oversight and coordination with GPO
      management. As of September 30,2007, OPO was providing KPMO with
      schedules, sample support, and regular status meetings in order to prepare
      the final financial statements and footnotes, with the KPMO audit opinion,
      by the target deadline ofNovcmber 15,2007. (Since then, the target
      deadline was met and GPO received an unqualified, or clean, audit
      opinion.)

      Other OIG Audits and Inspections. These included a review ofOPO's
      plans for the establishment of a remote secure facility for passport
      production, and oversight of a contract for the independent verification
      and validation of the development and implementation of GPO's Future
      Digital System (Fdsys). These audits and inspections have assisted GPO
      management in carrying out these important projects. The OIG also
      implemented TeamMate audit software to improve the efticiency of its
      audit process.
The Honorable Robert A. Brady - Page 4


        Prior Period Outstanding Recommendations As required by law, this
        section slImmarizes management's planned action to address remaining
        OIG recommendations still outstanding from previous reporting periods.

           •   Blank Passport Product integrity and Security (Inspection Report
               AI-0502, March 31, 2005). Management concurs with the
               recommendations and continues to implement actions that will
               correct the conditions. During the reporting period, 2 of the 4
               remaining open recommendations were closed. Management is
               taking action to close the remaining 2 recommendations.

           •   GPO Network Vulnerability AssesslIlent (Assessment Report 06-02,
               March 28. 2006). Management concurred with the four
               recommendations issued in this report, and has closed 2 of them.
               Management is working with the OIG to implement steps that will
               close the remaining 2 open recommendations.

           •   GPO Oracle Program Stakeholder Allalysis (Assessment Report
               06-03. March 31.2006). Management closed 4 ofthe [2
               remaining recommendations during the reporting period, and
               anticipates progress in closing the remaining recommendations
               during the next reporting period.

           •   Report on Early Oracle Implementation: independent Verification
               and Validation (Assessmell/ Report 07-01. November 20.2(06).
               Management concurred with each of the report's 2 [
               recommendations and has undertaken actions to implement them.

           •   Inspection o/GPO's Continuity o/Operations Plan (Report No.
               06-04, dated March 31.2006). GPO concurred with the report's
               eighteen recommendations, all of which focused on the
               requirement to establish a viable COOP Plan. In response to the
               recommendations, GPO developed a comprehensive COOP Plan
               based on the FEMA template. GPO's plan was subsequently
               circulated, revised, and approved. The OIG considers twelve of
               the recommendations still open. GPO is working with the OIG to
               attain closure of the open recommendations and, in fact, has taken
               actions that it considers to have closed eleven additional
               recommendations since the end of the reporting period.

 Ill.   Investigations. During the reporting period, investigative work
        performed by the OlG resulted in recommendations to improve the
        security of passport production, a conviction in a case involving a
The Honorable Robert A. Brady       Page 5


       workers' compensation fraud, various corrective actions for employee
       misconduct, other actions to combat procurement fraud, and related
       matters. These activities demonstrated the value ofOIG investigators in
       protecting GPO from waste, fraud, and abuse.

       Regarding the OIG's Management Implications Reports (MIR) regarding
       the security of passport production, management has concurred with all
       recommendations in the MIR on visitor access policy. For the MIR on the
       shipping and storage procedures of the security material used to create
       passports, GPO management had the report at the close of the reporting
       period and was evaluating the recommendations with a view to taking all
       necessary steps to ensure the security of shipping and storing these
       materials.

IV.    Statistical Tables

       Statistical tables as required by law are enclosed.

Ifyoll need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-512-1991, or bye-mail at asherman@gpo.gov.

Sincerely,




ROBERT C. TAPELLA
Public Printer

Enclosures

cc:    The Honorable Diane Feinstein, Vice Chairman
       The Honorable Robert Bennett, Ranking Minority Member
       The Honorable Michael E. Capuano         .
       The Honorable Susan A. Davis
       The Honorable Vernon 1. Ehlers
       The Honorable Kevin McCarthy
       The Honorable Daniel K. Inouye
       The Honorable Patty Murray
       The Honorable Saxby Chambliss
ENCLOSURE I

                  STA TISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                         Number of       Disallowed Costs
                                                        Audit Reports Questioned Unsupported
A.     Audit reports for which tinal action l had
       not been taken by the commencement
       of the reporting period                                 o             o              o
        Audit reports issued during the period
        with potential disallowed costs                                      347,247        240,687

       Total Costs                                                           347,247       240,687

B.     Audit reports on which management
       decisions 2 were made during the
       reporti ng period

       ( i.)    Dollar value of disallowed costs              o            o               o
       (ii. )   Dollar value of allowed costs                 o            o               o
c.     Audit reports for which final action
       was taken during the period, including:
       ( i.)   Dollar value of disallowed costs                o           o               o
               that were recovered by management
               through offsets against other
               contraclor invoices or nonpayment

       (i i.)   Dollar value of disallowed costs                o          o               o
                that were written off by management

D.     Audit reports for which no final                        o           o               o
       action has been taken by the end
       of the reporting period




I As defined by law. the term "final action" means the completion of all actions that the management of
lin establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
, As defined by law, the term "management decision" means the evaluation by management of the
tindings and recommendations included in an audit report and the issuance of a tinal decision by
management conceming its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


     STATISTICAL TABLE FOR SECTION 5{bl(3)- FUNDS PUT TO BETTER USE
                 AGREED TO IN A MANAGEMENT DECISION

                                                        Number of        Dollar Value of
                                                        Audit Re[1orts   Recommendations
A.      Audit reports for which final action) had
        not been taken by the commencement of
        the reporting period                                   0                    0

        Audit reports for which tinal action had
        not been taken for new reports issued
        during the reporting period with potential
        funds put to better use                                0                    0
B.      Audit reports on which management
        decisions4 were made during the reporting
        period                                                 0                    0

C.      Audit reports for which final action was
        taken during the reporting, including:

        ( i.)    Dollar value of recommendations
                 that were actually completed                  0                    0

        (i i.)   Dollar value ofrecommcndations
                 that management has subsequently
                 concluded should not or could not
                 be implemented or completed                   0                    0

D.      Audit reports for which no final action has
        been taken by the end of the reporting period          0                    0




.\ Same ddinition as in Enclosure I.
4  Same detinition as in Enclosure I.
